Press Releases Louisiana - 03/11/2010 - Former School Board President's Daughter Sentenced
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Attorney's Office
Eastern District of Louisiana
500 Poydras St
Suite 210-B
New Orleans, Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
FORMER SCHOOL BOARD PRESIDENT'S DAUGHTER SENTENCED
March 11, 2010
STACY SIMMS, age 49, a resident of New Orleans, Louisiana, daughter of former Orleans Parish School Board President Ellenese Brooks-Simms, was sentenced in federal court today pursuant to the Government's 5K motion (which remains under seal) by U. S. District Court Judge Eldon E. Fallon to serve two (2) years probation in connection with her prior guilty plea to misprision of a felony, announced U.S. Attorney Jim Letten.
According to court records, Ellenese Brooks-Simms, while an elected member of the Orleans Parish School Board secretly conspired with Mose Jefferson to approve the purchase of an educational software program for the Orleans Parish School System. In connection with this bribery scheme, Mose Jefferson received over $913,000 of Orleans Parish School Board money as sales commissions for selling the software program to the school system. In exchange for her assistance in promoting and approving the software program, Ellenese Brooks-Simms received approximately $140,000 as kickbacks from Mose Jefferson, and her daughter, STACY SIMMS, concealed her knowledge of the criminal conduct, by allowing a bank account in her name to be opened and used as a clearinghouse for bribe payments.
The case was investigated by the Federal Bureau of Investigation, the Criminal Division of the Internal Revenue Service and the Office of the Inspector General for the Department of Education. The case was prosecuted by Senior Litigation Counsel Salvador Perricone, and Assistant U. S. Attorneys Richard R. Pickens, II and Michael Simpson.
Top
Printable view
Last Modified: 03/17/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov